Unita( tztteo supreme Court
x
SCOTT MYERS,
Petitioner,
: AFFIRMATION OF SERVICE

-against-

CHARLES BUCCA, GREG SEELEY, PATROLMAN : 20-6443
ROWELL, ALAN FRISBEE, DONNA BAECKMAN : From 2nd Circuit C.O.A. 19-69
MICHAEL SPITZ, TERRY WILHELM, BOBBY
HAINES, MUNICIPALITY OF GREENE,
Respondents.
x
STATE OF NEW YORK
) ss.:
COUNTY OF GREENE

Scott Myers deposes and says, I live at 39 West Bridge Street, Catskill, NY, 12414, Phone
(518) 291-8169. On Tuesday, February 23, 2021, I emailed a true copy of these papers to
Crystal R. Peck, Esq, Bailey, Johnson & Peck, P.C., Attorneys At Law, 5 Pine West Plaza,
Suite 507, Washington Avenue Extension, Albany, New York 12205,
CRPeckPbaileyjohnson.com.

On February 24, 2021, hand-delivered a copy to Ed Kaplan, Greene County Attorney, 411
Main Street, Catskill, NY 12414, by handing them to Greene County Sheriff Deputies in the
Greene County Municipal Building (as instructed by Greene County Attorney Ed Kaplan).

I swear under penalty of perjury that the foregoing is true and correct, February 23, 2021, 28 U.S.
Code ยง 1746

P. 14

